 U.S. Department of Agriculture
  Office of Inspector General
        Midwest Region
          Audit Report



Monitoring of the Electronic Benefit Transfer
            System in Michigan




                     Report No.
                     27099-0023-CH
                     AUGUST 2002
                UNITED STATES DEPARTMENT OF AGRICULTURE
                               OFFICE OF INSPECTOR GENERAL
                                         Midwest Region
                                111 North Canal Street - Suite 1130
                                     Chicago, IL 60606-7295




DATE:        August 21, 2002

REPY TO
ATTN. OF:    27099-23-Ch

SUBJECT:     Monitoring of the Electronic Benefit Transfer (EBT) System in Michigan

TO:          Theodore O. Bell
             Regional Administrator
             Food and Nutrition Service
             77 West Jackson Boulevard, 20th Floor
             Chicago, IL 60604


This report presents the results of our audit of the Food and Nutrition Service’s
Monitoring of the Electronic Benefit Transfer (EBT) System in Michigan. Your August 7,
2002, response to the draft report is included as exhibit B with excerpts and the Office
of Inspector General’s position incorporated into the relevant sections of the report.

Based on the response from your office we have reached management decision for
Recommendation Nos. 2, 3, 5, 6, 7, and 8. Correspondence regarding final actions
should be addressed to the Office of the Chief Financial Officer. Management decisions
have not been reached for Recommendation Nos. 1, and 4. Management decisions on
these recommendations can be reached once you have provided us with the additional
information outlined in the report section, OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60
days describing the corrective action taken or planned and the timeframes for
implementation of those recommendations for which management decision has not yet
been reached. Please note that the regulation requires a management decision to be
reached on all findings and recommendations within a maximum of 6 months from
report issuance. If you have any questions, please have a member of your staff contact
John W. Pepper, Assistant Regional Inspector General, at 312-353-4910.



/s/
EDWARD R. KRIVUS
Regional Inspector General
                       EXECUTIVE SUMMARY
                    FOOD AND NUTRITION SERVICE
                       FOOD STAMP PROGRAM
           MONITORING OF THE ELECTRONIC BENEFIT TRANSFER
                         SYSTEM IN MICHIGAN

                          REPORT NO. 27099-0023-CH


                                       This audit report presents the results of our
       RESULTS IN BRIEF                audit of the electronic benefit transfer (EBT)
                                       system for the Food Stamp Program in
                                       Michigan. Our objective was to assess the
          regional office’s and State agency’s oversight of the EBT system, the
          adequacy of EBT system internal controls, and compliance with laws and
          regulations. We found inadequate controls over the process of updating
          benefits prior to issuance, and as a result, there is reduced assurance that
          only authorized benefits are available on the EBT system. Internal
          controls were also an issue regarding system security. We found that
          three former employees of the State agency still had an active logon
          identification, without a clear explanation as to why this occurred. With
          former employees still having access to the EBT system, the integrity of
          the entire system is compromised.

           Our audit also disclosed the lack of oversight by the State agency, since it
           did not have a permanent process to monitor its EBT system. Although
           the EBT system went statewide on July 1, 2001, the State agency has not
           yet decided which of the processor reports would be needed to effectively
           manage the EBT system. In addition, the Food and Nutrition Service
           (FNS) regional office had not provided oversight to ensure that a system
           was established or a timeframe when the process would be implemented.
           FNS also lacked oversight in ensuring that the State agency complied with
           the requirements listed in a waiver allowing the cash-out of food stamp
           benefits. The cash-out was allowed when a client moved to a State
           whose system was not interoperable with Michigan’s; however, nearly
           50 percent of all cash-outs, that occurred from June through
           December 2001 were in interoperable States.

                                   We recommended that the FNS Midwest
   KEY RECOMMENDATIONS             Regional Office ensure that the State agency
                                   develops controls to ensure that the
                                   information in the EBT issuance system is
         reviewed and supported before a client is allowed access to their benefits.

USDA/OIG-A/27099-0023-Ch                                                        Page i
           The State agency should be required to rescind access to its EBT system
           for the cited unauthorized users and amend its process for verifying and
           deleting EBT system access in a timely manner. FNS should work with
           the State agency to develop a time-phased action plan to document how
           the EBT management reports will be used by each division to manage the
           State agency’s EBT system. Finally, FNS should review the waiver on
           cash-outs and determine whether the waiver should be extended and for
           what period.

                                       In its response to the official draft, dated
      AGENCY RESPONSE                  August 31, 2002, FNS agreed with the findings
                                       and      recommendations      except       for
                                       Recommendation No. 1, in which agency
         officials stated that it believed the State agency has the organizational
         structure in place to ensure proper division of responsibility. We have
         incorporated applicable portions of the FNS response, along with our
         position, within the Findings and Recommendations section of the report.
         The FNS response, with attachments, is included in its entirety as exhibit
         B of the audit report

                                        Based on FNS response, we have reached
         OIG POSITION                   management decisions on Recommendation
                                        Nos. 2, 3, 5, 6, 7, and 8. Management
                                        decisions on the remaining recommendations
           can be reached once FNS has provided us with the additional information
           outlined in the report section, OIG Position. For Recommendation No. 1,
           we requested an additional response citing the proposed corrective
           actions to be taken along with their associated timeframes.




USDA/OIG-A/27099-0023-Ch                                                      Page ii
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................i
   RESULTS IN BRIEF....................................................................................................i
   KEY RECOMMENDATIONS .......................................................................................i
   AGENCY RESPONSE ...............................................................................................ii
   OIG POSITION...........................................................................................................ii
TABLE OF CONTENTS................................................................................................iii
INTRODUCTION............................................................................................................1
   BACKGROUND .........................................................................................................1
   OBJECTIVES .............................................................................................................2
   SCOPE .......................................................................................................................2
   METHODOLOGY .......................................................................................................2
FINDINGS AND RECOMMENDATIONS .......................................................................4
   CHAPTER 1 ...............................................................................................................4
   STATE AGENCY NEEDS TO IMPROVE ACCESS CONTROLS OVER EBT
   SYSTEM.....................................................................................................................4
   FINDING NO. 1 ..........................................................................................................4
   RECOMMENDATION NO. 1 ......................................................................................6
   FINDING NO. 2 ..........................................................................................................7
   RECOMMENDATION NO. 2 ....................................................................................10
   RECOMMENDATION NO. 3 ....................................................................................10
   RECOMMENDATION NO. 4 ....................................................................................11
   FINDING NO. 3 ........................................................................................................11
   RECOMMENDATION NO. 5 ....................................................................................13
   RECOMMENDATION NO. 6 ....................................................................................14
   CHAPTER 2 .............................................................................................................15
   INADEQUATE OVERSIGHT OF FNS WAIVER ALLOWED THE STATE AGENCY
   TO IMPROPERLY CASH-OUT FOOD STAMP BENEFITS.....................................15
   FINDING NO. 4 ........................................................................................................15
   RECOMMENDATION NO. 7 ....................................................................................17

USDA/OIG-A/27099-0023-Ch                                                                                               Page iii
 RECOMMENDATION NO. 8 ....................................................................................17
 EXHIBIT A – VALUE OF FOOD STAMP BENEFITS IMPROPERLY CONVERTED
 TO CASH .................................................................................................................19
 EXHIBIT B– FNS RESPONSE TO THE DRAFT REPORT ......................................20




USDA/OIG-A/27099-0023-Ch                                                                                          Page iv
                                     INTRODUCTION

                                          The U.S. Department of Agriculture Food and
             BACKGROUND                   Nutrition Service (FNS) administers the Food
                                          Stamp Program (FSP). The FSP assists
                                          low-income households by increasing their
               ability to purchase food. The basic method of FSP benefit delivery is the
               electronic benefits transfer (EBT) system.       Once a month, each
               participating household receives a supply of coupons determined by the
               number of people in the family, household income, and other related
               factors. Recipients can use the EBT to pay for food items at approved
               food retailers.

                The FSP is a Federal-State partnership with the Federal Government
                paying the full cost of recipient benefits. The Federal Government also
                pays at least half of the expenses incurred by the States to administer the
                program. FNS field offices authorize retailer participation in the FSP.

                The Food Stamp Act of 1977, Public Law 88-525, authorized FNS to
                experiment with alternative methods for the delivery of FSP benefits using
                electronic data processing and computer technology. The Act allowed, with
                proper oversight, FNS to issue waivers of any part of the Act to State
                agencies in support of pilot projects that would improve the administration
                and effectiveness of the FSP in delivering nutrition-related benefits.

                The EBT system provides benefit access through automated teller
                machines1 and point-of-service terminals located at approved retailers. It
                replaces the paper-based coupon delivery system with an electronic
                system. In June 1999, the State of Michigan Department of Family
                Independence Agency signed a contract with Citicorp Services, Inc., to
                implement a pilot EBT system in Jackson County, Michigan. The contract
                included a provision to expand to a statewide system, which was achieved
                in July 2001.

                Michigan uses an on-line (magnetic card) EBT system. On-line systems
                use the existing card technology developed by financial institutions and
                credit card companies. The State agency provides a plastic benefit card to

1
  The use of EBT allows States to deliver FSP and other benefits through the same system; however,
recipients cannot use automated teller machines to receive FSP benefits in the form of cash, unless the
State agency converts those benefits through an approved FNS waiver.

USDA/OIG-A/27099-0023-Ch                                                                        Page 1
           each FSP household. The card has a magnetic strip containing basic
           information to make food purchases. At an authorized FSP retailer, the
           recipient presents the card and enters a personal identification number into
           a point-of-service terminal. The terminal communicates with a central
           database that maintains recipient account balance information, which has
           been transferred from Michigan's FSP certification system. The central
           database verifies the amount of benefits available, authorizes the
           transaction, and deducts the purchase amount from the household's
           account. The system also calculates the cumulative FSP sales for each
           retailer and authorizes payment electronically to the retailers' bank accounts
           daily. Citicorp learns of changes in authorized retailers through access to
           the Retailer EBT Data Exchange system maintained by FNS.

                                       The objectives of this audit were to assess the
         OBJECTIVES                    FNS regional office’s oversight of and the
                                       adequacy of Michigan's EBT internal controls
                                       for the FSP. Specifically, we identified the
          internal controls that were established in key operational areas, performed
          tests to determine if the controls were operating as designed, and provided
          an assessment on the adequacy of prescribed controls.

                                         This audit is part of a nationwide effort in the
             SCOPE                       continuing monitoring of a State EBT system.
                                         This audit of Michigan’s EBT system was
                                         conducted at the FNS Midwest Regional Office
           in Chicago, Illinois; the Michigan Family Independence Agency in Lansing,
           Michigan; and 5 Michigan local offices in Wayne County (Detroit Metro area)
           and Kent County (Grand Rapids, Michigan). During fiscal year 2001, the
           State agency issued over $504 million in food stamp benefits of $15 billion
           issued nationwide. Since the EBT system has expanded statewide, it has
           about 641,000 recipients and 5,445 retailers. We conducted our fieldwork
           from November 2001 through February 2002. Our audit coverage was
           generally from the time the EBT system was implemented statewide in July
           2001, through current operations. We expanded audit coverage in certain
           areas, as indicated in the report.

           We conducted the audit in accordance with Government Auditing
           Standards established by the Comptroller General of the United States.

                                      To accomplish our audit objectives, we:
        METHODOLOGY                   (1) Reviewed     EBT      policies,    program
                                      procedures, and pertinent correspondence at
                                      the FNS Midwest Regional Office and the
          Michigan State agency, (2) interviewed responsible FNS personnel, and
          State agency officials managing the EBT project; and (3) analyzed the State

USDA/OIG-A/27099-0023-Ch                                                         Page 2
          agency's controls, including the procedures for controlling access to the
          EBT system. At the five local offices, we reviewed EBT policies and
          procedures for the certification and issuance of FSP benefits, procedures for
          the issuance of EBT cards, and procedures used when clients selected their
          personal identification numbers.




USDA/OIG-A/27099-0023-Ch                                                       Page 3
                  FINDINGS AND RECOMMENDATIONS


                         STATE AGENCY NEEDS TO IMPROVE ACCESS
CHAPTER 1
                         CONTROLS OVER EBT SYSTEM

                 The State agency needs to improve its controls over the EBT system.
                 Controls over the certification and issuance of FSP benefits need to be
                 enhanced, logon access for FSP employees needs to be rescinded
                 promptly after they resign or transfer to another department, and the State
                 agency, with assistance from FNS, needs to develop a plan as to how
                 management reports provided by the EBT processor will be distributed
                 and used to monitor the program. Developing and maintaining good
                 internal controls over the EBT system will deter system abuses and the
                 issuance of unauthorized benefits.

                                         FSP caseworkers have unlimited access to
            FINDING NO. 1                the EBT issuance system and can
                                         independently change benefits for a recipient.
      UNLIMITED ACCESS TO EBT            Controls    are    inadequate    to    prevent
        SYSTEM MAY AFFECT                caseworkers from making fraudulent changes
         CLIENTS’ BENEFITS               to a recipient’s food stamp benefits and
                                         sending those changes to the EBT issuance
                                         system.     As a result, there is reduced
              assurance that FSP benefits are correct and are properly supported.

                 Federal regulations require that in order to safeguard certification and
                 issuance records from unauthorized creation or tampering, the State
                 agency shall establish an organizational structure which divides the
                 responsibility for eligibility determinations and coupon issuance among
                 certification, data management, and issuance units. The certification unit
                 shall be responsible for the determination of household eligibility and the
                 creation of records and documents to authorize the issuance of coupons
                 to eligible households. The data management unit, in response to input
                 from the certification unit, shall create and maintain the household
                 issuance record master file on cards, computer discs, tapes, or similar
                 memory devices. The issuance unit shall provide certified households
                 with the authorized allotments2.


2
    7 CFR 272.4 (c)(1) dated January 1, 2001.

USDA/OIG-A/27099-0023-Ch                                                            Page 4
          We reviewed casefiles at five local offices and determined that the FSP
          benefits shown in the issuance system were not supported by
          documentation in the certification casefiles for 4 of the 112 recipients we
          reviewed. Once a certification worker enters a password, current
          procedures allow them to independently modify eligibility data in the
          State’s computerized recipient certification system. When the enter button
          is keyed into the certification system, the EBT issuance system is
          automatically updated to reflect the revised benefits. Except for a very
          small sample of cases reviewed by local office supervisors, there were no
          second party reviews of certification data entered prior to the issuance
          system being updated. As a result, there is reduced assurance that only
          authorized FSP benefits are available on the EBT system.

          Although we found that there were adequate controls in establishing a
          new food stamp case, there were only minimal controls once a recipient is
          assigned a caseworker. At the local office, caseworkers interview clients
          and collect and review documentation that supports the certification level
          as entered into the State agency’s certification system. The caseworkers
          enter the certification system through their password and can update a
          client’s data including number of household members, household
          expense, and income directly into the certification system. A change in
          any of these data fields can affect a client’s benefit amount. That is why
          there needs to be a control to prevent a caseworker from autonomously
          entering data into the certification system that instantly transmits to the
          EBT issuance system.

          The State agency’s current review procedures require local office
          supervisors to review a minimum sample of 4 cases per caseworker per
          month. However, one of the five local offices we visited selected only new
          cases for review. These procedures provide little assurance that food
          stamp cases with a change in benefits will be selected and reviewed to
          ensure that any changes to a recipient’s benefits are legitimate, either
          before or after they become available in the EBT system. The lack of
          controls was further evidenced by our review of casefiles at the 5 local
          offices. We found that 4 of the 112 casefiles we reviewed did not support
          the EBT benefit level, and therefore these clients received unsupported
          FSP benefits. Local officials could not explain why the cases had an
          issuance amount greater than the supporting documents in the casefile.

          At two of the local offices, officials were unable to provide two casefiles we
          had selected for review. They later provided the two missing casefiles,
          which they told us were located at other local offices. Without the casefile
          being physically located at the office where the benefits were certified and
          issued, a caseworker or supervisor would be unable to ensure that the
          food stamp benefits provided were adequately supported. This presents

USDA/OIG-A/27099-0023-Ch                                                        Page 5
          further support that controls were needed to ensure a food stamp
          recipient’s issuance amount is supported and that there be adequate
          separation of responsibilities between the certification and issuance
          systems.

          The need for controls to ensure food stamp benefits are supported by
          credible documents is highlighted in an OIG Investigation Report of a case
          in another State. The report described how a caseworker, during the re-
          certification of a client (an undercover police officer), solicited a bribe in
          exchange for fraudulently increasing the client’s benefits. The caseworker
          agreed to falsify an increase in monthly expenses thereby increasing the
          recipient’s food stamp allotment.

          The State agency’s current process of having supervisors review four
          cases per caseworker per month is not enough to ensure EBT issuance
          matches supporting documentation. By definition, an internal control
          should ensure that a particular objective is met: In this instance, there
          should be a control to ensure that the issuance amount is properly
          supported by documentation in the casefile. In light of this definition, the
          current control of reviewing a certain number of cases per month, even if
          performed diligently, would not ensure completion of the intended
          objective. The State agency needs to develop control techniques between
          the establishment of benefits on the State’s certification system and when
          those benefits are made available on the EBT system. All controls
          developed should meet the objective of ensuring that all adjustments
          made to client benefits are supported by credible evidence.


    RECOMMENDATION NO. 1


          Require the State agency to develop controls that would ensure that the
          information in the EBT issuance system is reviewed and supported before
          a client is allowed access to their benefits.

          Agency Response

          In its response, FNS stated that it does not agree with our
          recommendation and believes that the State agency has the
          organizational structure required by 7 CFR 272.4 (c)(1). This regulation
          requires the division of responsibility for eligibility determinations and
          benefit issuance among certification, data management, and issuance
          units. The caseworker at the State agency’s local office determines
          eligibility and benefits, but on a daily basis, the information is sent
          electronically to the EBT issuance system for access by the food stamp

USDA/OIG-A/27099-0023-Ch                                                        Page 6
           clients. In addition, a caseworker is not authorized to issue an EBT card
           since that is a function of the local agency’s fiscal unit staff. Although FNS
           acknowledges that there is a risk of a caseworker entering incorrect or
           fraudulent data affecting a food stamp client’s benefits, that risk is
           mitigated by the local agency’s quality control procedures.

           OIG Position

           We agree that the State agency’s current structure does physically
           separate both eligibility and benefits issuance, but there still is a risk that
           food stamp benefit levels may not be supported by documentation. This
           has been proven by FNS reporting on the State agency’s consistently high
           error rate in determining benefit levels. It only appears that there is a
           division of responsibility between the State agency’s certification and the
           EBT issuance systems. If a case is not selected for review, then the data
           entered into the certification system is the same as the benefits made
           available in the EBT issuance system. In addition, the State agency’s
           quality control procedure, of reviewing four cases per caseworker per
           month, is not enough to ensure EBT issuance matches supporting
           documentation. In addition, as noted in this report, one of the State’s local
           agencies only selected new cases to review. Therefore, the benefits could
           be improperly increased in an established case file without the possibility
           of that case being selected for review.

           A time delay between a caseworker entering data in the certification
           system before being sent to the issuance system does not ensure the
           accuracy or authenticity of the data. A caseworker would still be able to
           enter fraudulent household data, thereby raising food stamp benefits, and
           that benefit will be available to the client after the daily electronic transfer.
           Both FNS and the State agency have a large investment in both the EBT
           issuance and certification systems, which could be used to ensure
           supportable food stamp benefit claims. In order to reach management
           decision, FNS needs to provide a description of the controls developed
           and a specific timeframe as to when those controls will be in place.

                                     The State agency’s security procedures over
       FINDING NO. 2                 the EBT system allowed former employees
                                     access to that system. Current EBT system
 SECURITY PROCEDURES AND             security procedures place too much reliance
CONTROLS NEED IMPROVEMENT            on departmental supervisors notifying the
                                     security staff when a person no longer needs
                                     access, and the EBT processor rescinding
         unauthorized users’ access in a timely manner. As a result, three former
         employees still had access to the EBT system thereby placing the entire
         system at risk of improper access and data manipulation.

USDA/OIG-A/27099-0023-Ch                                                            Page 7
                  Federal regulations require that State and local agencies be responsible
                  for the security of all automated data processing operational systems
                  involved in the administration of the FSP3. However, our review of the
                  State agency’s security procedures disclosed that several steps were
                  involved to add or remove EBT system access. Failure of a control at any
                  step renders the entire control system ineffective in removing system
                  access in a timely manner. Regardless of which control failed, the fact
                  remains that with former employees still having access to the EBT system,
                  the entire system has been compromised.

                  The State agency’s procedure to add or delete access to the EBT system
                  is to have an employee’s supervisor fill out and sign a request form and
                  submit the form to the State agency’s system security staff. The
                  employee’s job title determines the level of access to the system. The
                  security staff reviews each form for completeness and supervisory
                  approval and then forwards the form to the processor for appropriate
                  action. After the processor has added or deleted user identification
                  access for the employee, it sends a confirmation back to the State agency.
                   The State agency cannot access the processor’s system to add or delete
                  an employee’s access, or even to monitor the current access listing. This
                  entire process may take days, or even weeks, since the State agency
                  must wait for confirmation from the processor before the security staff is
                  assured that access had been provided or removed.

                  At the local offices, the primary control for ensuring that former employees
                  no longer have access to the EBT system rests with the EBT coordinator.
                  The coordinator must prepare a form requesting that former employees’
                  access to the EBT system be rescinded; that form is then to be forwarded
                  to the State’s security staff. However, we found that EBT coordinators did
                  not always submit the forms to have EBT access deleted for employees
                  who no longer require access. At one local office, we asked for a list of
                  employees currently authorized to access the EBT system. When we
                  reviewed the list, we found one person listed whose employment with the
                  State agency had ended 6 months previously. (Note: Even though this
                  primary control failed, the secondary control discussed in the next
                  paragraph deleted that person’s access.) When we asked the EBT
                  coordinator why she had not requested that the former employee’s access
                  be rescinded, she stated that she did not even think about it. Although
                  this is the primary control in removing EBT system access, State security
                  staff admitted that local office staff does not always submit the necessary
                  forms.


3
    7 CFR 277.18 (p) (1), dated January 1, 2001.

USDA/OIG-A/27099-0023-Ch                                                              Page 8
          Without the local office notification, the security staff must rely on
          secondary controls to prevent unauthorized access. One of the secondary
          controls consists of specific queries to help detect unauthorized EBT
          system access. The State agency’s system security staff run queries
          against the State agency’s human resources and payroll systems to help
          identify employees who no longer needed EBT system access. The query
          against the human resources system is done monthly and identifies
          employees who have departed (left the State’s employ), retired, or been
          laid off. The results are compared to the EBT system access listing, and if
          they find employees who have separated per human resources but still
          have EBT access, they notify the processor to remove that person’s
          access. However, performing a query a month or more after access
          should have been denied is not an effective control. We performed a
          similar query by reviewing one month’s listing of 791 State agency
          personnel that had EBT access to the human resource list of personnel
          that have left the State’s employ in the past year. We found that 3 of the
          791 still had active logon identification for EBT access even though they
          no longer worked for the State agency.

          The monthly query run against former employees does not take into
          account employees that transferred to another State position and no
          longer need EBT system access. To review these possible breaches to
          system security, the State agency staff performs another query using the
          payroll system data, which is supposed to identify inter-agency transfers.
          However, this query is performed once per quarter, so a transferred
          employee could have active logon identification for up to 3 months before
          it is discovered. In addition, security staff do not have a query that will
          show intra-agency transfers, so if an employee changed jobs within the
          agency, and did not require continued access, security staff would not
          know to make the deletion unless the employee’s supervisor submitted the
          written request. As noted above, the security system controls are
          ineffective in identifying and promptly removing EBT system access.

          Better coordination between the State’s security staff and the EBT
          processor would help guard the system against unauthorized access. The
          State agency’s current procedures and controls allow the EBT system to
          be accessed by unauthorized persons. The entire process over EBT
          system security should be reviewed and amended to ensure that system
          access is by authorized personnel only. The procedures should include a
          limited timeframe between the moment a person no longer needs EBT
          system access and their access being cancelled. The State agency
          needs a system where they could monitor or delete a person’s system
          access at least on a daily basis.



USDA/OIG-A/27099-0023-Ch                                                     Page 9
    RECOMMENDATION NO. 2


          Require the State agency to revoke system access for the three former
          employees we identified as having unauthorized access.

          Agency Response

          In its response, FNS stated that it agreed with our recommendation and
          have asked the State agency to provide confirmation that system access,
          by three former employees, has been revoked.

          OIG Position

          We accept FNS’ management decision. For Final Action, provide
          documentation to OCFO as evidence that system access has been
          removed for the three former agency employees cited in the report.


    RECOMMENDATION NO. 3


          Require the State agency to amend its process for adding and deleting
          EBT system access to ensure that access is by authorized employees
          only. Also, ensure that the additions and deletions are performed in a
          timely manner.

          Agency Response

          In its response, FNS agreed with our recommendation and requested the
          State agency to provide the corrective actions it will implement to improve
          its process for adding and deleting EBT system user access.

          OIG Position

          We accept FNS’ management decision. For Final Action, provide
          documentation to OCFO that the corrective actions will prevent
          unauthorized EBT system access and not rely solely on backup controls to
          remove unauthorized user access. FNS also needs to ensure that the
          State agency’s response includes a specific date for implementation.




USDA/OIG-A/27099-0023-Ch                                                    Page 10
        RECOMMENDATION NO. 4


                 Until a permanent and efficient system is operational, require the State
                 agency to review its EBT processor contract to ensure the processor is
                 meeting its requirement in adding and especially deleting a person’s EBT
                 system access in a timely manner.

                 Agency Response

                 In its response, FNS agreed with our recommendation and requested the
                 State agency to provide documentation to support that its EBT contractor
                 had been reminded of its contractual obligation to timely add or remove
                 EBT system user access.

                 OIG Position

                 To reach management decision, FNS needs to provide us with the
                 controls the State agency will use to ensure the EBT contractor meets its
                 contractual obligations in maintaining EBT system access by authorized
                 users only.

                                        The State agency does not have a permanent
           FINDING NO. 3                process for monitoring its FSP through the use
                                        of reports provided by its EBT processor, nor
      STATE AGENCY NEEDS TO             does it have a written policy on identifying
       ESTABLISH PERMANENT              potential fraud cases for referral to proper
    PROCEDURES TO ADEQUATELY            authorities. The State agency has not decided
      MANAGE ITS EBT SYSTEMS            which of the processor-generated reports
                                        would be needed to effectively manage the
                                        delivery of FSP benefits through its EBT
             system. Adding to this indecision was the lack of oversight or guidance by
             the FNS regional office in ensuring that a system was established or a
             timeframe when the process would be implemented. As a result, the State
             agency was unable to effectively manage its EBT system to ensure
             compliance with FSP requirements.

                 Federal regulations require that the State shall ensure that the EBT
                 system provides reports that enable it to properly manage the system.4
                 Regulations also require the establishment and operation of fraud



4
    7 CFR 274.12 (k) (2) dated January 1, 2001.

USDA/OIG-A/27099-0023-Ch                                                         Page 11
                  detection units that will detect, investigate, and assist in the prosecution of
                  program fraud. States shall have a written procedure for systematically
                  identifying and referring fraud cases for investigation5.

                  EBT was implemented statewide on July 1, 2001, but the State agency
                  has yet to establish a permanent system to monitor system activity. The
                  FNS regional office provided little guidance for the State agency’s
                  establishment of an EBT monitoring system. Although the State agency
                  installed a new EBT management team at the start of statewide operation,
                  they have yet to establish timeframes as to when a management and
                  fraud detection system would be implemented. Without procedures to
                  monitor the EBT system or to detect possible fraudulent activity, there is
                  reduced assurance of the system’s effectiveness and compliance with
                  program requirements.

                  The processor provides the State agency with management reports that
                  detail various EBT activities. These reports are transmitted to the State
                  agency’s data center electronically, either daily or monthly, and provide
                  financial, operational, fraud, performance, and security data. The data
                  center controls the flow of all reports and ensures the personnel identified
                  on the distribution list receive their reports timely. Since statewide
                  implementation of EBT, the State agency’s new management team has
                  been meeting on a regular basis to review and analyze all EBT
                  management reports. However, after several months of reviews, the State
                  agency neither has a permanent system to ensure the appropriate
                  personnel receive the reports nor determined whether those reports are
                  being used to manage the EBT system.

                  Although the State agency’s data center was distributing reports to
                  appropriate divisions, the State agency’s Office of Inspector General (OIG)
                  division was not using this information. This division received reports on
                  potential fraud; however, there was no evidence that it used these reports
                  to identify suspicious activity. Although OIG personnel stated that they
                  reviewed the reports, our review of the manual transaction reports that the
                  OIG division received did not indicate that anything was reviewed or that any
                  action was taken. There were no markings, notes, or spreadsheets made
                  available as evidence that the report was ever reviewed. Furthermore,
                  manual transaction usage reports for July and October 2001 were not
                  provided to the State’s OIG division.

                  A State OIG official stated that they are still working on profiling techniques
                  for monitoring and identifying unauthorized manual transactions. This was
                  the main reason given why the State’s OIG division refused to provide us a

5
    7 CFR 272.4 (h) dated January 1, 2001.

USDA/OIG-A/27099-0023-Ch                                                                Page 12
                  copy of its draft policies and procedures. Federal regulations require State
                  agencies to establish and operate fraud detection units, with written
                  procedures, which systematically identify and refer potential fraud cases for
                  investigation6.

                  An FNS regional official stated that they have not issued any guidance to
                  States relating to management reports. The State agency would benefit
                  from FNS guidance in the development of procedures for using the reports
                  provided by the processor to manage the EBT system. With FNS’
                  knowledge of other State systems and monitoring procedures and its
                  association with processors, it could provide samples of best practices and
                  alternatives for States to follow in managing their EBT systems.

                  The State agency’s evaluation of the processor’s management reports has
                  been an ongoing process, but it needs to set timeframes for when this
                  review process will be completed. The State agency needs to have a
                  permanent system in place to monitor the EBT system through the use of
                  EBT processor management reports. The State agency also needs to
                  establish written procedures on fraud detection as soon as possible, so
                  that potential fraud cases can be handled in a systematic manner and not
                  be overlooked.


        RECOMMENDATION NO. 5


                  Work with the State agency to develop a time-phased action plan to
                  document the purpose, distribution, and description of how the EBT
                  management reports will be used by each division to manage the State
                  agency’s EBT system.

                  Agency Response

                  In its response, FNS stated that it forwarded a list of EBT system reports
                  that the State agency must receive to properly monitor the FNS regulatory
                  requirements covering EBT operations. In addition, FNS notified the State
                  agency that other reports may be needed to monitor EBT waivers and
                  managing the EBT contract. FNS requested the State agency to respond
                  as to when the reports will be received and who will be responsible for
                  reviewing the EBT contractor reports.




6
    7 CFR 272.4 (h) dated January 1, 2001.

USDA/OIG-A/27099-0023-Ch                                                              Page 13
          OIG Position

          We accept FNS’ management decision. For Final Action, provide
          documentation to OCFO that FNS received the State agency’s plan to use
          EBT system reports to monitor EBT operations and when that plan will be
          implemented.


    RECOMMENDATION NO. 6


          Work with the State agency to develop a time-phased action plan to
          ensure EBT client integrity.

          Agency Response

          In its response, FNS concurred with our recommendation, and in
          conjunction with the State agency, it had developed a client integrity plan.
           On July 25, 2002, FNS sent a memorandum of understanding to the State
          agency for signature. The memorandum of understanding details the
          responsibility of both FNS and the State agency in ensuring food stamp
          client integrity

          OIG Position

          We accept FNS’ management decision. For Final Action, provide
          documentation to the OCFO that the memorandum of understanding on
          the client integrity plan with the State agency is signed, implemented, and
          monitored for effectiveness.




USDA/OIG-A/27099-0023-Ch                                                     Page 14
                           INADEQUATE OVERSIGHT OF FNS WAIVER
CHAPTER 2                  ALLOWED THE STATE AGENCY TO IMPROPERLY
                           CASH-OUT FOOD STAMP BENEFITS


                                               The FNS regional office did not ensure that
                FINDING NO. 4                  the State agency complied with the terms of
                                               the waiver that allowed the State agency to
                                               convert food stamp benefits to cash. This
                  occurred because the FNS regional office did not indicate the time period
                  when the waiver was in effect, nor require the State agency to report on
                  the status of the cash-outs made. Although the FNS regional office
                  initially required data relating to cash-outs, it decided that the data it
                  received was not useful in monitoring the State agency’s activities. As a
                  result, FNS regional officials were unaware that, within a 7-month period,
                  the State agency cashed out over $68,000 in food stamp benefits in direct
                  violation of the FNS waiver.

                  The Food Stamp Act of 1977 states that an experimental project, which
                  can only be conducted by waiving requirements of The Act, must include
                  an evaluation to determine the effects of the project7. The Act also states,
                  that for an experimental project requiring a waiver, a project is considered
                  impermissible if it is not limited to a specific time period8 FNS did not
                  adhere to these two provisions when it granted the Michigan State agency
                  a waiver from Food Stamp Act provisions that allowed the State agency to
                  convert the remaining EBT food stamp benefits in a household’s account
                  to cash when the household moved to a State that was not interoperable
                  with Michigan.

                  An interoperable State is one that belongs to and follows the Quest
                  operating system. The Quest operating rules allow States to issue
                  benefits using their own EBT card, but allow a recipient to use these
                  benefits in another State operated under these same rules. There are
                  9
                    30 States that are interoperable with Michigan’s EBT system. When FNS
                  issued the cash-out waiver, it was clear that Michigan was not to cash-out
                  any FSP benefits when recipients moved to an interoperable State.

                  The State agency requested that FNS waive the prohibition that food
                  stamp benefits not be converted to cash, and on March 6, 1996, FNS

7
    Section 17 (b) (1 (B) (i) (II) (b) (1) (A) of the Food Stamp Act of 1977, as amended 1996.
8
    Section 17 (b) (1) (B) (iv) (V) of the Food Stamp Act of 1977, as amended 1996.
9
    Some of these States may not yet be interoperable Statewide. See footnote for exhibit A.

USDA/OIG-A/27099-0023-Ch                                                                         Page 15
          approved a waiver of the cash-out requirements, but with several
          stipulations. One of the stipulations being that these cash-outs should not
          be done if the State to which the household was moving had
          interoperability with Michigan’s EBT system. FNS further stipulated in the
          waiver that the State agency must submit quarterly and annual reports to
          FNS that included the number of households and dollar amount in those
          cash conversions. An FNS regional official stated that after they received
          the reports on cash-out activity, they determined that the reports were not
          useful and quit requiring the State agency to submit them.

          The Act also required that any waiver issued would have to specify a time
          period it would be in effect. Neither the State agency’s waiver request nor
          the subsequent approval of that request by FNS stipulated a time period.
          An FNS official told us that the waiver would expire when the State
          agency’s current EBT processor contract expired in 2006. Later, he told
          us that States that had the waiver approved before the
          August 1996 deadline, with FNS’ approval, could be able to continue to
          use it for subsequent contracts. Provided FNS continues to approve the
          waiver, Michigan would be able to cash-out food stamp benefits
          indefinitely.

          The FNS cash-out waiver became effective July 1, 2001, when Michigan
          began statewide EBT implementation. To determine whether the State
          agency was adhering to the conditions of the FNS waiver, we reviewed a
          State agency report of all FSP recipients that cashed out their benefits
          from July 1, 2001, through December 31, 2001, their address of record,
          and the amount of FSP benefits cashed out. During that 6-month period,
          the State agency cashed out FSP benefits for a total of 521 recipients. In
          direct violation of the FNS waiver, 236 of the 521 FSP recipients were
          allowed to cash-out $62,590 in FSP benefits: 194 had moved to another
          location within Michigan and 42 had moved to an interoperable State. In
          June 2001, prior to the effective date of the waiver, the State agency
          converted $5,702 worth of FSP benefits to cash for 22 recipients. In total,
          258 food stamp recipients received $68,292 in cash instead of having
          those benefits transferred via EBT to their new residence. (See exhibit A.)
          Had the FNS regional office reviewed the same report we reviewed, it too
          could have confirmed that the State agency was not complying with the
          terms of the waiver.

          According to The Act, all States will be required to have completed the
          installation of their EBT systems and all systems must be interoperable by
          October 2002. However, until nationwide interoperability is achieved, FNS
          needs to perform annual reviews to determine whether this waiver to
          cash-out benefits should be maintained. Until this waiver is rescinded,
          FNS needs to obtain feedback from the State agency in order to

USDA/OIG-A/27099-0023-Ch                                                    Page 16
          adequately monitor the State agency’s use of the waiver. An FNS
          regional official defended their use of the waiver by stating that without a
          guarantee of benefit portability, cash conversion is the best way to ensure
          that clients are able to use their benefits. However, this does not relieve
          FNS of its responsibility for ensuring that the State agency complies with
          the terms of the waiver.


    RECOMMENDATION NO. 7


          Determine what information is necessary to assure that the Michigan State
          agency complies with the waiver to cash-out food stamp benefits (waiver
          number 960040), and obtain this information on a quarterly and annual
          basis.

          Agency Response

          In its response, FNS agreed with our recommendation and requested that
          the State agency provide documentation that it reminded its local agencies
          that a food stamp client leaving the State may have their benefits cashed-
          out only when a client moves to a non-interoperable State. FNS
          requested that the State agency notify them which quarterly and annual
          reports will be made available to FNS in order to determine if a food stamp
          client’s benefits were cashed-out appropriately. The State agency reports
          must be submitted to FNS starting with the quarter ending September 30,
          2002.

          OIG Position

          We accept FNS’ management decision. For Final Action, provide
          documentation to OCFO that the State agency notified its local agencies
          about the restrictions to EBT cash-outs and FNS has received the State
          agency reports on cash-out activity.


    RECOMMENDATION NO. 8


          Review the State’s quarterly and annual reports on cash-outs, and at least
          annually, determine whether the waiver should be extended and for what
          period.




USDA/OIG-A/27099-0023-Ch                                                     Page 17
          Agency Response

          In its response, FNS concurred with our recommendation and stated it will
          review, at least annually, the State agency’s quarterly and annual reports
          of food stamp benefits that were cashed-out. Beginning no later than
          December 30, 2002, FNS will monitor the State agency’s use of the cash-
          out waiver and will determine whether the waiver should be extended and
          for what period.

          OIG Position

          We accept FNS’ management decision. For Final Action, provide
          documentation to OCFO that you have reviewed the State agency’s
          reports on its cash-out activity.




USDA/OIG-A/27099-0023-Ch                                                   Page 18
EXHIBIT A – VALUE OF FOOD STAMP BENEFITS IMPROPERLY
CONVERTED TO CASH


         STATES WITH                        NUMBER                      VALUE OF FOOD STAMP
     INTEROPERABLE EBT                   OF FOOD STAMP                  BENEFITS CONVERTED
          SYSTEMS10                       RECIPIENTS                          TO CASH

        Alabama                                                   1                             $355
         Arizona                                                  4                              387
        Arkansas                                                  3                              473
         Florida                                                 18                            5,055
         Georgia                                                  2                              700
        Kentucky                                                  4                              640
        Maryland                                                  1                              312
        Michigan                                                194                           52,690
       Minnesota                                                  1                              372
       New York                                                   3                              522
     North Carolina                                               2                              324
      Washington                                                  2                              630
       Wisconsin                                                  1                              130
                 Subtotal                                       236                          $62,590
  Total Cash-Outs in
       June 2001
 (prior to FNS waiver)                                           22                            $5,702

       GRAND TOTAL                                              258                            $68,292




10
  Three States, Idaho, Tennessee, and Virginia are interoperable with Michigan’s EBT System but have
not yet provided Statewide access. Eight recipients from these States cashed-out their benefits totaling
$1507.

USDA/OIG-A/27099-0023-Ch                                                                       Page 19
EXHIBIT B– FNS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/27099-0023-Ch                      Page 20
USDA/OIG-A/27099-0023-Ch   Page 21
USDA/OIG-A/27099-0023-Ch   Page 22
USDA/OIG-A/27099-0023-Ch   Page 23
Informational copies of this report have been distributed to:

Agency Liaison Officer
General Accounting Office (1)
Office of Management and Budget (1)
Office of the Chief Financial Officer
 Director, Planning and Accountability Division (1)
OIG Headquarters
 Director, AFD (2)
 OIG File Copy (1)
RIG, F&ADPO (1)
